OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/GHANA’S
HIV/AIDS PROGRAM
AUDIT REPORT NO. 7-641-10-006-P 

JUNE 28, 2010 





DAKAR, SENEGAL

Office of Inspector General


June 28, 2010

MEMORANDUM

TO:                 USAID/Ghana Mission Director, Cheryl Anderson

FROM:               Regional Inspector General, Gerard Custer/s/

SUBJECT:            Audit of USAID/Ghana’s HIV/AIDS Program (Report No. 7-641-10-006-P)


This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft report and have included the comments in their entirety
in appendix II.

The report includes nine recommendations for your action. Based on actions taken by the
mission and supporting documentation provided, final action has been taken on
recommendations 1, 3, 4, and 5; and management decisions have been reached on
recommendations 2, 6, 7, 8, and 9. Please provide the Audit Performance, and Compliance
Division in the USAID Office of the Chief Financial Officer (M/CFO/APC) with the necessary
documentation to achieve final action.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International
Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Audit Findings ................................................................................................................. 6 


     EngenderHealth’s Quality Health

     Partners Program Has Had Limited Effect .................................................................... 6 


     EngenderHealth Claimed Too Much 

     Credit for the Results Achieved................................................................................... 8 


     SHARP Subpartners Did Not Have 

     Enough Implementation Time ................................................................................... 10 


     Commodity Storage Conditions Were

     Inadequate ................................................................................................................ 11 


     Antiretroviral Drugs Were Unavailable or 

     Expiring .................................................................................................................... 14


     USAID/Ghana Set Performance Targets 

     for OICI Too Low....................................................................................................... 16 


     OICI Did Not Document Eligibility of 

     Orphans or Vulnerable Children................................................................................ 16 


     Distribution of Program Allowances 

     Lacked Controls ....................................................................................................... 18 


     USAID/Ghana Should Adhere to 

     Branding Requirements ............................................................................................ 18 


Evaluation of Management Comments ....................................................................... 20 


Appendix I—Scope and Methodology......................................................................... 23 


Appendix II—Management Comments........................................................................ 26 

SUMMARY OF RESULTS

Ghana had an HIV prevalence of approximately 1.7 percent in 2009. The epidemic is
concentrated among certain populations, primarily commercial sex workers, in specific
geographic areas.

Under the President’s Emergency Plan for AIDS Relief (PEPFAR), the U.S. Government
made Ghana the focus of extensive efforts to combat HIV/AIDS through service delivery,
policy reform, and coordinated financial commitments. As a continuation of PEPFAR,
the U.S. Government chose to develop a 5-year (2009-2013) partnership framework with
Ghana. The primary goal of the partnership framework is to reduce the number of new
infections by 30 percent by 2013 through focused prevention efforts. Other goals
include increasing the population covered by antiretroviral treatment from 30 to 60
percent by 2013; increasing the number of persons receiving care by 200 percent to
130,000 by 2013; strengthening the health management systems needed to achieve the
prevention, treatment, and care goals; and strengthening the capacity of community-
based organizations to provide information and services to most-at-risk populations and
people living with HIV. The United States also supported a Global Fund1 grant for the
nationwide expansion of HIV/AIDS care and treatment services.

USAID has channeled the U.S. Government’s efforts against HIV/AIDS in Ghana. Since
2004, USAID has worked closely with the Government of Ghana to strengthen
prevention efforts for most-at-risk populations and link these groups with services and
treatment, while promoting prevention and antistigma activities. The Agency has
supported training, logistics, and performance improvement to improve the quality of
care in selected sites and link these sites with community-based prevention, care, and
support interventions to promote a continuum of HIV services.

To carry out these activities, USAID/Ghana entered into agreements with several
implementing partners, including those shown in table 1. During fiscal year (FY) 2009,
the mission obligated $3.9 million and disbursed $3.3 million for the HIV/AIDS program.

The Regional Inspector General/Dakar conducted this audit at USAID/Ghana as part of
its FY 2010 audit plan to answer the following question:

         Are USAID/Ghana’s HIV/AIDS activities achieving their main goals?

The audit concluded that, although the prevalence rate of HIV in Ghana has decreased
(peaked in 1998 at 2.4 percent and was estimated at 1.7 percent in 2009),
USAID/Ghana has been only partially successful in achieving the specific goals of the
five key programs.




1
  The Global Fund is a unique partnership among governments, civil society, the private sector, and affected
communities dedicated to attracting and disbursing additional resources to prevent and treat HIV/AIDS,
tuberculosis, and malaria. Since its creation in 2002, it has received funding of $18.7 billion for more than
572 programs in 140 countries.


                                                   1

                                     Table 1. Audited Programs

       Program              Partner                  Objective                 Estimated     Program
                                                                                Budget          Dates
    Quality Health      EngenderHealth      To improve the quality of         $20,050,000*   6/01/2004–
    Partners (QHP)                          health services through the                       9/30/2010
                                            development and
                                            implementation of innovative
                                            strategies, technical
                                            assistance, and training for
                                            quality
    Strengthening       Academy for         To reduce new HIV                 $15,000,000    6/10/2004–
    HIV/AIDS            Educational         infections and mitigate the                      10/30/2009
    Response            Development         effect of AIDS in Ghana
    Partnerships        (AED)
    (SHARP)
    DELIVER             John Snow           To increase the availability of   $13,970,000*    9/2004–
                        International       essential health supplies                        9/30/2011
                        (Field Support)
    HOPE                Opportunities       To improve care and support        $1,203,359    6/16/2004–
                        Industrialization   and provide economic                             9/30/2009
                        Centers             opportunities for people
                        International       living with HIV and orphans
                        (OICI)              and vulnerable children
                                            (OVC)
    Teacher Training    Ghana’s Ministry    To integrate mainstream            $200,000      3/01/2008–
    College HIV/AIDS    of Education,       HIV/AIDS education into the                      9/30/2010
    Window of Hope      Science, and        curriculum of all teacher
    Curriculum          Sports              training colleges
   * Amount includes funding for other health activities not specifically related to HIV/AIDS.

Quality Health Partners (QHP) – Under the 5-year QHP cooperative agreement with
USAID/Ghana, EngenderHealth was to help the Ghana Health Service improve family
planning, reproductive health, motherhood safety, child survival, and services to reduce
sexually transmitted infections and HIV/AIDS. The audit found limited improvement in
the overall quality of health services, for two reasons. EngenderHealth did not (1)
collaborate sufficiently with hospital management, or (2) document action plans it had
helped hospitals develop, or assist in implementing the plans (pages 6-8). Furthermore,
no clear link existed between EngenderHealth’s QHP activities and the results reported
(pages 8-10). Only limited improvement occurred because EngenderHealth did not
clearly define its goals for project implementation and did not clearly communicate its
plans to interested parties. Also, the program could have been more effective had
EngenderHealth trained more hospital personnel in following quality assurance
procedures, identifying gaps in processes, and reducing stigma. As a result of the lack
of collaboration with hospital management and the inadequate implementation of action
plans, hospital staff and management have lost interest in the program, limiting its
effectiveness.

	 We recommend that USAID/Ghana, in coordination with EngenderHealth, review and
   revise its implementation plan for 2010 to ensure that sufficient hospital staff is
   trained or retrained, and to ensure that the work plan includes sufficient followup with
   the hospitals to implement clearly defined action plans (page 8).




                                                      2

	 We also recommend that USAID/Ghana, in collaboration with EngenderHealth,
   develop a system that more carefully measures the results of the activities performed
   by EngenderHealth (page 10).

Strengthening HIV/AIDS Response Partnerships Program (SHARP) – According to
two of USAID’s nine principles of development and reconstruction assistance (capacity
building and sustainability), the Agency is to strengthen local institutions, transfer
technical skills, promote appropriate policies, and design programs to ensure their
impact endures. Contrary to these development principles, Academy for Educational
Development (AED) did not give its SHARP subpartners enough time to implement their
activities (pages 10-11). Also, because the program had ended,2 program records
documenting the project’s outcomes were not available. In other words, the audit team
did not receive complete documentation regarding the results that were being achieved
by each subpartner. At the onset of the program, SHARP experienced delays caused by
conflicts with AED management and inadequate performance by the subpartners initially
selected to implement the activities. As a result, although the infection rate in Ghana
has declined, the subpartners may not have achieved the capacity to sustain mitigation
efforts, and the audit was unable to verify the final results that the program reported
related to reducing infections and mitigating the effects of AIDS.

	 We recommend that USAID/Ghana develop its new HIV/AIDS prevention activity to
   build the capacity of local institutions and improve the prospects for sustainability by
   entering into longer subagreements and improving the subpartner selection process
   (page 11).

DELIVER – Antiretroviral drug manufacturers typically state that their medicines should
be stored at temperatures not to exceed 77 to 86 degrees Fahrenheit and should be
disposed of by their expiration dates. However, the audit team observed storage
temperatures at Ghana’s Central Medical Store in Accra that exceeded manufacturers’
established limits. Furthermore, expired drugs were not being disposed of regularly,
occupying premium storage space. Medical store officials explained that they did not
have sufficient funds to purchase generators and were not aware of future plans to
dispose of expired drugs. Because items are exposed to temperatures that exceed their
recommended limits and because expired drugs are not disposed of regularly, drugs
distributed by these facilities may be ineffective or even harmful to patients (pages 11-
13).

Proper storage and handling aside, the audit revealed that one-third of antiretroviral
treatment drugs were unavailable, and many drugs on hand were close to their
expiration dates (pages 14-15). This finding demonstrates the difficulty in achieving the
goals of the USAID | DELIVER project: to strengthen Ghana’s supply system, improve
the availability of commodities, and increase the capacity of health personnel. Some
reasons for unavailable and expiring drugs include (1) funding shortages stemming from
nonreimbursement by the national insurance system, (2) a weakness in reporting drug
utilization, (3) a lack of vehicles at the regional medical stores to deliver drugs to
facilities, (4) a lengthy procurement process, (5) a shortage of experienced, well-trained
staff in supply chain management, and (6) insufficient storage space. When drugs are
unavailable, patients have no choice but to wait or rely on substitutes and suffer the
health consequences.

2
    The SHARP program ended October 31, 2009.


                                                3

	 We recommend that USAID/Ghana advocate for improved HIV/AIDS commodity
   procurement and storage in a letter to the Director General of the Ghana AIDS
   Commission that includes this section of the audit report and points out the need for
   adequate equipment in warehouses to guarantee the quality of antiretroviral therapy
   (ART) drugs (page 13).

	 Further, we recommend that USAID/Ghana work with John Snow International and
   revise the work plan to include preparation of a disposal plan to assist the
   Government of Ghana in disposing of expired drugs (page 15).

HOPE – USAID’s Automated Directives System (ADS) 203.3.4.5 requires that operating
units set performance targets that can optimistically but realistically be achieved.
However, USAID/Ghana set performance targets for Opportunities Industrialization
Centers International (OICI), its implementing partner on the HOPE project, too low, and
OICI consistently exceeded them, sometimes significantly, from FY 2006 through FY
2009. Targets were too low because USAID/Ghana never adjusted them after they were
originally set in 2006; the mission overlooked the need to monitor the targets and to
adjust them accordingly. As a result, the performance targets used from FY 2006 to
2009 did not provide a realistic approach for measuring program performance (page16).

Although it exceeded quantitative targets in awarding scholarships, the HOPE project
may not have met a qualitative target—that is, it may not have limited services to its
targeted population. PEPFAR has clearly defined eligibility criteria for orphans and
vulnerable children (OVC). The criteria include age, HIV status, and status of parents.
However, the audit found no records for recipients of USAID-sponsored scholarships
indicating that recipients met those criteria. OICI could not produce records showing
eligibility of the OVC it supported because OICI relied on other organizations or
government agencies to screen students for inclusion in the HOPE project’s scholarship
program and did not ensure that this process was adequately documented and
monitored. As a result, OICI may have provided services to recipients who were not
eligible for the program as defined by PEPFAR (pages 16-17). Nevertheless, individuals
interviewed asserted that the program had a positive impact.

Those who received HOPE scholarships did not always receive monthly allowances
according to program guidelines. Each scholarship beneficiary was entitled to a monthly
allowance to cover transportation and meals. However, beneficiaries did not always
receive all of these funds on time from OICI because school officials at one school
retained part of the allowance and because regional offices did not consistently receive
funds from OICI headquarters in a timely manner. As a result, beneficiaries faced
challenges attending school and feeding themselves, challenges that could lead
beneficiaries to drop out (page 18).

	 We recommend that USAID/Ghana establish written procedures to regularly revise
   its performance targets for PEPFAR activities to reflect realistic expectations (page
   16).

	 We recommend that the mission implement controls requiring that OICI verify the
   eligibility of all students who receive scholarships and maintain documentation to
   support each student’s eligibility (page 18).




                                           4

	 Finally, we recommend that USAID/Ghana, in coordination with OICI, implement
   adequate financial controls to ensure that scholarship recipients receive their
   allowances on time and in full (page 18).

Teacher Training College HIV/AIDS Window of Hope Curriculum – Ghana’s Ministry
of Education, Science, and Sports implemented the teacher training program, Window of
Hope, which introduced teaching the basics of HIV/AIDS to teacher training colleges
throughout Ghana. USAID/Ghana did not establish indicators for the program, and
because of the limited funding for this activity, we performed only a limited review.

All Programs – The audit further concluded that USAID/Ghana was not meeting
branding requirements. USAID’s ADS 320, “Branding and Marking,” requires USAID
implementers to brand and mark all aspects of USAID’s program assistance. However,
assets such as computers funded by USAID were not marked with a USAID logo, and
several individuals were not aware that the programs outlined above were funded by
USAID. This lack of awareness occurred because USAID/Ghana did not ensure that the
implementing partners were adhering to branding requirements. Consequently, the
objectives of USAID’s branding campaign, such as enhancing the visibility and value of
USAID’s foreign assistance, were not always achieved (pages 18-19).

	 We recommend that USAID/Ghana direct all its partners to develop branding plans
   and monitor adherence to USAID branding guidelines (page 19).

Detailed findings appear in the following section. The audit’s scope and methodology are
described in appendix I.

USAID/Ghana agreed with all but one of our recommendations. Based on actions taken
by the mission and supporting documentation provided, final action has been taken on
recommendations 1, 3, 4, and 5, and management decisions have been reached on
recommendations 2, 6, 7, 8, and 9. USAID/Ghana’s comments are included in their
entirety in appendix II.




                                           5

AUDIT FINDINGS

EngenderHealth’s Quality Health
Partners Program Has Had Limited
Effect
The purpose of the 5-year quality services cooperative agreement was to support the
Ghana Health Service and private institutions to improve family planning, reproductive
health, motherhood safety, child survival, and services to reduce sexually transmitted
infections and HIV/AIDS through the development and implementation of innovative
strategies, technical assistance, and training. The key program objectives were to:

1. 	 Strengthen institutional capacity to provide services using approved standards and
     guidelines.

2. 	Improve systems for human resources capacity development (pre- and in-service
    training and performance management).

3. Strengthen supervision, coordination of resources, problem identification and
   problem-solving skills, and monitoring.

4. 	Raise the standard of quality in private and public health facilities and develop a
    franchising approach.

EngenderHealth was to achieve these objectives by helping improve Ghana’s health
system. Through QHP, EngenderHealth was to implement quality assurance programs
and various training programs at 30 hospitals across Ghana. However, the program was
not well implemented, and as a result, its impact on Ghana’s health system was minimal.
Two specific areas of concern that support this conclusion are discussed below.

Lack of Coordination With Hospital Administration ─ At all six hospitals visited,
hospital administrators were not aware of the program’s plans or objectives. Moreover,
there were no agreements between EngenderHealth and the hospitals explicitly defining
the goals of the project, how the project was to be implemented, or what responsibilities
the hospitals would have to ensure program effectiveness. At Komfo Anokye Teaching
Hospital in Kumasi, the director of public health, who was in charge of personnel
training, noted that the program would have achieved greater results if EngenderHealth
had worked with hospital management to integrate training activities. The hospitals did
not have any plans to provide training to their personnel beyond what was already
provided. According to hospital management, there has been turnover of staff, and new
hospital staff will not receive any EngenderHealth training, thereby reducing the
program’s effectiveness.

According to a data quality assessment performed by an independent evaluator in
FY 2008, it was unclear whether hospital management had knowledge of
EngenderHealth’s activities. The assessment indicated a lack of understanding of
EngenderHealth’s role, purpose, and jurisdiction.




                                           6

Furthermore, hospital management was not aware of action plans developed by the
hospital staff and EngenderHealth (described below) to improve hospital administration.
Without the support and buy-in of hospital management, EngenderHealth’s program was
not able to achieve its desired results.

Action Plans Not Implemented – After conducting training sessions for hospital staff,
EngenderHealth worked with selected individuals to identify quality assurance problems
and assisted the hospitals in developing action plans to resolve the problems. At the five
hospitals visited where QHP quality assurance programs were implemented, we found
no evidence of action plans developed by the hospitals with EngenderHealth’s
assistance. The hospital staff did not know where they were maintained or how these
plans were to be implemented. The staff noted, in some cases, that EngenderHealth
had not returned to follow up on the action plans, to monitor their progress, or to resolve
problems. Two months after the end of our fieldwork, the mission reported receiving two
action plans from the Korle Bu Teaching Hospital.

Also, the program could have been more effective had EngenderHealth trained more
hospital personnel in following quality assurance procedures, identifying gaps in
processes, and reducing stigma. One hospital administrator admitted that the total
number of personnel trained at her hospital was insufficient to bring about the desired
effect either in stigma reduction or in improvement in overall patient experience. For
example, at Komfo Anokye Teaching Hospital in Kumasi, although the hospital and
EngenderHealth could not confirm the total number of personnel trained because of poor
record keeping, the hospital estimated that 70 out of a total of 2,500 personnel
(3 percent) received stigma reduction training. At 37 Military Hospital in Accra, where
both the quality assurance and stigma reduction trainings took place, hospital officials
estimated that 70 out of 2,000 personnel (4 percent) received training.

In an effort to train more personnel, EngenderHealth trained selected hospital staff as
trainers who could in turn train their colleagues. However, at hospitals visited during the
audit, none of the 25 trained trainers had used their acquired skills to train other hospital
personnel in quality assurance, stigma reduction, or any other subjects.

The mission agreed that antistigma activities, which had limited impact at three large
facilities, may require additional efforts in training. However, the mission pointed out that
high training coverage is not a measure of a quality assurance program. The mission
stated that the goal of quality assurance is to establish a quality assurance team at the
facility and that establishing a team does not require a large number of trainees.

Furthermore, although the need for refresher training courses was often expressed
during our site visits by previously trained hospital personnel, EngenderHealth did not
have plans to provide these courses. Some personnel attended the training from 1 to 3
years ago and required refresher courses to stay current with the knowledge or skill
acquired from the training. None of the three individuals interviewed who had received
the training could recall the principal elements of the training. Finally, all staff
interviewed noted that they had not been contacted by EngenderHealth about training
for new staff or about additional trainings. Although many individuals noted that the
training materials and delivery were effective, the inability to reach more personnel
hampered the program’s overall effectiveness.




                                             7

Furthermore, the lack of coordination with hospital staff and the inadequate
implementation of action plans occurred because EngenderHealth had not clearly
defined its goals for project implementation and had not clearly communicated its plans
to interested parties. The weaknesses in project implementation that a 2008 data quality
assessment identified still existed at the time of the audit. Because of EngenderHealth’s
inability to promote the program objectives, hospital staff and management have lost
interest in the program. As a result, the QHP program in Ghana has had limited effect.

   Recommendation 1: We recommend that USAID/Ghana, in coordination with
   EngenderHealth, review and revise its implementation plan for 2010 to ensure
   that sufficient hospital staff is trained or retrained, and to ensure that the work
   plan includes sufficient followup with the hospitals to implement clearly defined
   action plans.

EngenderHealth Claimed Too
Much Credit for the Results
Achieved
According to ADS 203.3.4.2, performance indicators should be useful for the relevant
level of decision making for which they are intended; they should be unambiguous and
closely track the results they are intended to measure. In addition, performance
indicators selected for inclusion in the performance management plan should measure
changes that are clearly and reasonably attributable to USAID efforts. In the context of
performance indicators and reporting, changes are attributable when the outputs of
USAID-financed activities have a logical and causal effect on the result(s) being
measured by a given performance indicator. One way to assess attribution is to ask, “If
there had been no USAID project or activity, would the measured change have been
different?” If the answer is no, there likely is an attribution problem, and the team should
look for a more suitable performance indicator. If more than one agency or government
is involved in achieving a result, USAID should describe exactly what role each played in
achieving the result.

EngenderHealth entered into an agreement with USAID from 2004 to 2010 for a total of
$20 million to support the Ghana Health Service and private institutions to improve
family planning, reproductive health, motherhood safety, child survival, and services to
reduce sexually transmitted infections and HIV/AIDS through the development and
implementation of innovative strategies, technical assistance, and training.
EngenderHealth reported on 16 indicators related to HIV/AIDS, and it reported that it met
or exceeded most of the 16 indicator targets in 2009.

However, EngenderHealth has claimed too much credit for care and treatment results
that cannot be attributed to its activities. For example, although QHP activities were
implemented on a limited basis at the Komfo Anokye Teaching Hospital,
EngenderHealth claimed full credit for all the care and treatment results reported for the
hospital. There is no clear link between the activities undertaken by EngenderHealth
and what was reported. Of the 16 indicators EngenderHealth reported on, the audit
determined that 14 (shown in table 2) were only indirectly related to the activities of the
QHP program, especially at hospitals where the QHP program was implemented only
partially. In fact, the first indicator in the table—the number of service outlets providing
HIV-related palliative care—should not be attributed to EngenderHealth at all. A service


                                             8

outlet, such as a hospital or clinic, would have provided the HIV-related palliative care
regardless of EngenderHealth’s involvement.

Table 2. Selected Indicators and Results Reported by EngenderHealth for FY 2009

                               Indicator                                     FY 2009      FY 2009
                                                                             Target        Actual
Number of service outlets providing HIV-related palliative care                     30         30
Number of individuals provided with palliative care                             14,500     30,384
Number of service outlets providing clinical prophylaxis or treatment for
TB to HIV infected individuals                                                      30          30
Number of HIV infected clients attending care/treatment services that are
receiving treatment for TB                                                       4,500         403
Number of individuals trained to provide clinical prophylaxis or treatment
for TB infected individuals                                                       560          885
Number of registered TB patients who received counseling and testing
for HIV and received their test results as a U.S. Government-supported
TB service outlet                                                                1,400       2,509
Number of service outlets providing counseling and testing according to
national guidelines                                                                 30          30
Number of individuals who received counseling and testing for HIV and
received their test results                                                     15,000      25,461
Number of service outlets providing ART according to national and
international guidelines                                                            30          30
Number of individuals newly initiating ART therapy                               1,400       5,704
Number of pregnant women newly initiating ART therapy                        No target         359
Number of individuals receiving ART at the end of the reporting period          7,500       17,138
Number of pregnant women receiving ART during the reporting period           No target         658
Number of health workers trained to deliver ART according to national
guidelines                                                                        900          968
Note: The results above are reported by the hospitals. Because of poor record keeping, we were not able
to verify the reported results.

Furthermore, EngenderHealth is taking full credit, rather than partial, for the clinical
outputs. Moreover, EngenderHealth’s results are not based on a carefully developed
measurement system—one that uses a baseline metric prior to the start of the activities;
instead, the organization attributes to project activities all increases in service outputs
that occurred after project start.

The audit team’s opinion is further supported by the 2008 data quality assessment,
which noted that managers at some QHP-supported facilities reported on the indicators
in table 2 only reluctantly; the managers did not see the need to report on clinical data
indicators that were not influenced by EngenderHealth’s actions. The managers noted
that the results reported in table 2 would have occurred even without EngenderHealth’s
program.

The mission countered that QHP complements the Global Fund’s clinical care and
treatment program through quality assurance to strengthen services and improve
operations—e.g., reducing stigma, improving client flows, ensuring confidentiality,
improving laboratory functions, strengthening strategic information systems, and creating
linkages with community-based programming. In prevention, it develops materials and
supports supervisory systems for peer-education programs, strengthens programmatic


                                                    9

and management skills of local implementing partners, and builds government staff
capacity to manage programs. These initiatives improve the quality of prevention and
treatment activities. When quality improves, more people seek services, and facilities
are able to handle more clients. USAID/Ghana believes that at hospitals where QHP
has been successfully implemented, the care and treatment indicators can be attributed
to its activities, but agrees that results from other sites should not be attributed to QHP.
It also noted that similar programs were reporting their progress by using the same
PEPFAR indicators throughout the world.

USAID/Ghana and EngenderHealth did not agree on indicators that would better reflect
the activities and performance of the QHP program, and as a result, the achievement
reported by EngenderHealth may be misleading and not useful to USAID/Ghana and
other stakeholders.

   Recommendation 2: We recommend that USAID/Ghana, in collaboration with
   EngenderHealth, develop a system that more carefully measures the results of
   the activities performed by EngenderHealth.

SHARP Subpartners Did Not Have
Enough Implementation Time
USAID has developed nine principles of development and reconstruction assistance.
Under the area of capacity building, USAID aims to “strengthen local institutions, transfer
technical skills, and promote appropriate policies.” Under sustainability, it aims to
“design programs to ensure their impact endures.” The Agency’s policy guidance on
Mitigating the Development Impacts of HIV/AIDS adds that USAID must “demonstrate
how successful mitigation programs can be achieved and build capacity to sustain the
efforts.” It should “strengthen country capacity to improve development program
performance and thereby reinforce the global effort to combat the spread of HIV/AIDS.”

Although SHARP was a 5-year project with the goal of reducing new HIV infections,
particularly for the most-at-risk population, only 1 of the 23 subpartners was given more
than 2 years for project implementation. In fact, several were given a year or less to
implement their activities.      The short timeframe given to SHARP’s subpartners
hampered the program’s effectiveness and limited the benefits of SHARP’s technical
and financial management training. Although all five subpartners interviewed expressed
satisfaction with the program, they unanimously agreed that the program would have
been much more effective if they had been given at least 2 years to implement their
activities. A SHARP assessment conducted by Washington officials in late 2008 further
alluded to this shortcoming. Table 3 shows the timeframe given to each of the five
subpartners visited.

         Table 3. Implementation Timeframe Given to SHARP Subpartners
         SHARP Subpartner                   Implementation Dates          No. of Months
 4-H Ghana                                      1/2008-6/2009                    18
 MICDAK Charity Foundation                      7/2007-9/2008                    19
                                                    4-7/2009
 OICI                                           12/2008-6/2009                    7
 Pro-link                                       9/2008-6/2009                    10
 Society of Women Against AIDS in Africa         2/2008-6/2009                   17



                                            10 

The mission explained that SHARP’s startup was particularly onerous because working
directly with female sex workers, their nonpaying partners, and men who have sex with
men required different skills and innovative approaches that were foreign to these
organizations. AED’s management problems, which resulted in the replacement of its
chief of party, also contributed to delays in implementation. More importantly, all eight
subpartners that started with SHARP before 2006 had management and performance
problems. In addition, a key subpartner, West Africa Program to Combat AIDS and STI
in Ghana (WAPCAS), was originally selected to work in 21 sites nationwide. However,
its activities were drastically reduced because of unfavorable audit findings, and it later
chose to leave the program. Similarly, the Center for Popular Education and Human
Rights in Ghana (CEPEHRG), another key subpartner that supported the development
of the intervention for men who have sex with men, left SHARP. These setbacks
required the identification, training, and awarding of grants to several new subpartners, a
challenging process that consumed a great deal of time and effort.

Because SHARP has ended and there was a delay in replacing the program, some of
the knowledge and skills obtained under SHARP were lost or forgotten. Also, without
any oversight, reporting requirements, salaries, or monthly transportation allowances for
its peer educators, the subpartners’ attempts to continue this work have not been
effective.

Finally, USAID/Ghana expected to continue SHARP’s prevention activities under a new
award. Despite a recommendation from an assessment team to “ensure that there are
no major funding gaps between the current and next PEPFAR agreement(s) or
contract(s),” USAID’s follow-on activity has been delayed because of a lengthier-than-
anticipated procurement process. Although SHARP has ended, we are making a
recommendation to ensure that the follow-on HIV/AIDS prevention activity awarded on
February 26, 2010, does not encounter the same problem.

   Recommendation 3: We recommend that USAID/Ghana develop its new
   HIV/AIDS prevention activity to build the capacity of local institutions and improve
   the prospects for sustainability by entering into longer subagreements and
   improving the subpartner selection process.

Commodity Storage Conditions
Were Inadequate
The USAID | DELIVER project aims to strengthen the integrated supply chain system
and enhance commodity security. One of its FY 2009 objectives was to provide
supervision to improve management of antiretroviral drugs, lab supplies including test
kits, and family planning commodities.

Commodities Were Exposed to High Temperatures – Labels on antiretroviral drugs
generally require storage at room temperature or at temperatures not to exceed 77 to 86
degrees Fahrenheit. However, storage temperatures observed at Ghana’s Central
Medical Store in Accra exceeded these established limits because the store’s air-
conditioner was not operational for over 2 years. Therefore, despite being well designed
and ventilated, the storage facility had a temperature of about 88 degrees Fahrenheit in
December 2009. The air-conditioner was finally repaired in February 2010 (after
completion of audit fieldwork), and the Central Medical Store blamed the delay on a


                                            11 

negligent subcontractor. In the northern regions of Ghana, temperatures are about 11
degrees higher than those in Accra, potentially exposing the items to even greater heat.

The Central Medical Store supplies 10 regional medical stores, which in turn supply
many other medical facilities in each region. Although the three regional medical stores
visited were air-conditioned, they, along with the Central Medical Store, did not have
generators or other contingency plans to protect commodities during power outages.
Therefore, items at the regional medical stores were periodically subjected to heat that
exceeded the recommended storage temperatures. In Ghana, power outages have
been estimated to occur three times per month for up to 8 hours at a time. All medical
stores visited further rely on electric freezers and refrigerators that hold expensive items
such as insulin, vaccines, and other temperature-sensitive items.

Medical store officials explained that they did not have the authority to purchase
generators, and funds were unavailable to purchase generators. In February 2010, after
audit fieldwork was completed, the Central Medical Store was reportedly in the process
of installing a generator.

Storerooms Were Overcrowded – Officials at the three regional medical stores visited
complained that there was inadequate storage space. Particularly at the Ashanti and
Greater Accra regional medical stores, storage rooms were overcrowded with boxes
scattered along the floor, making it difficult to walk or retrieve certain items. Because of
lack of space, many items were stored outside with excessive exposure to dust, sunlight,
heat, and rain. As the following picture shows, it was difficult to determine the contents
of the commodities and whether the commodities were adequate for distribution or set
for disposal. The inadequate storage conditions occurred because of a lack of funding
to provide additional space.




Pictured above in January 2010, supplies that would not fit in storage rooms at the Greater Accra
Regional Medical Store are piled outdoors. (Photo by OIG)




                                               12 

Disposition of Expired Drugs Needed - Each store visited had a separate section for
storing boxes of expired drugs, as shown in the picture below. Although store officials
explained that the disposal process was carefully controlled, the regional medical stores
in Ashanti and Greater Accra have not disposed of expired drugs within the past 3 years.
The policy at the medical store in the Eastern region was to send expired drugs to the
Central Medical Store for disposal, although this was not being done regularly. Officials
at the stores visited were not aware of when the next drug disposal was scheduled or
when the expired drugs would be returned to the Central Medical Store.




Shown above in January 2010, the entire top shelf of the storeroom at the Ashanti Regional Medical
Store is stocked with expired drugs for disposal. (Photo by OIG)

Items that are improperly stored and exposed to temperatures that exceed their
recommended limits may be ineffective or even harmful to patients. Also regularly
disposing of expired drugs would provide additional shelf space and eliminate the
possibility of misusing them. The mission has great concerns regarding these conditions
but believes that USAID | DELIVER should not be held accountable because the project
requires work with country counterparts through technical assistance only rather than
through direct management of the stores. We agree with the mission that storage
conditions and the disposal of expired drugs may be outside of its direct, manageable
interest, but we believe that the situation is serious and should be conveyed in writing to
the Government of Ghana. Therefore, we are making the following recommendation.

    Recommendation 4: We recommend that USAID/Ghana advocate for improved
    HIV/AIDS commodity procurement and storage in a letter to the Director General
    of the Ghana AIDS Commission that includes this section of the audit report and
    points out the need for adequate equipment in warehouses to guarantee quality
    of antiretroviral therapy drugs.




                                               13 

Antiretroviral Drugs Were
Unavailable or Expiring
According to the USAID | DELIVER FY 2010 work plan, the project aims to strengthen
Ghana’s supply system, improve the availability of commodities, and build up the
capacity of health personnel. A specific objective listed in the FY 2010 and FY 2009
work plans is to improve the capacity of local personnel to undertake forecasting,
quantification, procurement planning, and regular reviews of the pipeline of antiretroviral
drugs, test kits, tuberculosis medicines, and family planning commodities. Although
much progress has been made, our observations confirmed the mission’s belief that “the
national system for commodity procurement and distribution continues to under-
perform.”

During visits to the Central Medical Store and 3 of Ghana’s 10 regional medical stores,
several antiretroviral drugs were not available on demand, as shown in table 4. Based
on input provided by store employees, each store received requests for 17 to 21 drugs.

       Table 4. Availability of Antiretroviral Drugs at Medical Stores Visited

               Location of Store             Drugs        Drugs Not        Percent
                                            Available     Available       Unavailable
     Central Medical Store                     13               8             38
     Eastern Regional Medical Store            11               8             42
     Ashanti Regional Medical Store            12               5             29
     Greater Accra Regional Medical Store      13               8             38
         Total                                 49              29            37

In addition, supplies of 5 of the 49 antiretroviral drugs observed were to expire within
2 months, and as noted previously, each store had large sections of expired drugs. An
official explained that when the Central Medical Store receives requests for drugs that
are found to expire within 2 months, staff members there often decide to put the drugs in
the expired drugs section of the store rather than send them to the requesting regional
medical store. Another official complained that the store’s large inventory of expired
drugs is a result of receiving drugs from the Central Medical Store that cannot be used
by the expiration date. A Central Medical Store official denied that expiring drugs were a
problem and cited a favorable review performed in 2008. In general, officials noted
improvements regarding drug availability and the number of expired drugs, but all
acknowledge that there is room for further improvement.

Problems that contribute to the unavailability and high percentage of expired drugs
include the following.

	 Weaknesses in reporting drug utilization – To properly forecast demand, facilities are
   required to report drug consumption statistics by the fifth day of the following month.
   However, one study conducted about a year ago in the Ashanti region showed that
   more than 50 percent of its facilities were unable to meet this deadline. Some
   facilities were also reporting incomplete or incorrect information. As a result, regional
   medical stores were not able to provide stock status reports by the 12th of the
   following month as required by the National AIDS Control Program. During visits to



                                            14 

   the Ashanti, Eastern, and Greater Accra regional medical stores in mid-January
   2010, the most recent stock status reports were for November, September, and June
   2009. These medical stores were more than 1, 3, and 6 months late, respectively, in
   reporting their monthly drug balances, yet nobody had reminded the Greater Accra
   Regional Medical Store about the need to submit these overdue reports.

	 Lack of funds – All levels of the supply chain must deal with funding shortages. One
   official explained that the national insurance system has not been reimbursing
   medical facilities in a timely manner, preventing facilities from purchasing additional
   supplies. A January 2010 newspaper article reported that some health providers in
   the Ashanti region had not been reimbursed since May 2009, hampering their ability
   to pay the regional medical store.

	 Lack of vehicles – The regional medical stores in the Eastern and Ashanti regions
   cited the lack of transport vehicles as a cause for delays in meeting the needs of the
   medical facilities.

	 A lengthy procurement process – One official complained that procurement laws
   were inflexible and the process was too lengthy, and another remarked that the
   process relied excessively on collaboration and coordination between government
   officials and foreign donors.

	 Shortage of qualified staff – Despite the training provided by the project, there was a
   shortage of well-qualified and well-trained technical staff. Each store had many new,
   entry-level personnel, but they were not always trained or capable of performing their
   assigned duties.

	 Space limitations – One pharmacist explained that space limitations often lead to
   ordering a 3-month supply of drugs instead of a 6-month supply.

Because of the unavailability of antiretroviral drugs, patients have no choice but to wait
or to rely on substitutes. Taking medication regularly is a matter of life and death for
these patients. In a country that has a shortage of medical supplies, to have large
quantities of expensive drugs expire is unacceptable. Aside from being wasteful, it
directly reduces the number of people that have access to drugs and causes the
potential death of patients who cannot receive timely treatment. In December 2009, the
Acting Director General of the Ghana AIDS Commission estimated that treatment covers
only 37 percent of people living with HIV in Ghana. To some extent, the mission has
already been informed about these problems, and the mission believes that many of the
issues are outside its controllable interest (as previously noted). Nonetheless, we
recommend that the mission take the following action.

   Recommendation 5: We recommend that USAID/Ghana work with John Snow
   International and revise the DELIVER work plan to include preparation of a
   disposal plan to assist the Government of Ghana in the disposal of expired
   goods.




                                           15 

USAID/Ghana Set Performance
Targets for OICI Too Low
USAID’s ADS 203.3.4.5 states that, for each indicator in a performance management
plan, the operating unit should set performance baselines and set targets that can be
optimistically but realistically achieved within the stated timeframe and with the available
resources.      Targets should be ambitious but achievable given USAID inputs.
Performance targets that are set too low are not useful for management or for reporting
results to PEPFAR and other stakeholders.

Targets for some of OICI’s annual performance indicators were set too low from
FY 2006 to FY 2009. As a result, as shown in Table 5, OICI consistently exceeded
them, sometimes by significant margins. For example, in 2009, OICI reached 1,369
individuals with abstinence messages, far more than its target of 300 individuals.

                        Table 5. OICI Targets Versus Reported Results

                                         2009     2009    Percent     2008     2008    Percent
            Indicators                  Target   Actual   Achieved   Target   Actual   Achieved
Individuals reached through community    300     1,369      456       200      697       349
outreach that promotes HIV/AIDS
prevention through abstinence
Individuals trained to promote           400     1,705      426       400      584       146
HIV/AIDS prevention programs
through abstinence or being faithful
Individuals trained to promote           400     1,705      426       400      584       146
HIV/AIDS prevention through other
behavior change beyond abstinence or
being faithful
  Total individuals trained to           400     1,705      426       400      584       146
  provide HIV palliative care


The disparity between target and actual results occurred because USAID/Ghana’s
HIV/AIDS team overlooked the need to adjust indicators as required. Adjusting targets
will help keep them relevant and may improve results. Targets that are set too low are
not useful for management or reporting purposes. We are making the following
recommendation to ensure that USAID/Ghana revises targets to reflect realistic
expectations, enabling management to measure program performance accurately.

    Recommendation 6: We recommend that USAID/Ghana’s HIV/AIDS team
    establish written procedures to revise its performance targets for the President’s
    Emergency Plan for AIDS Relief activities to reflect realistic expectations.

OICI Did Not Document Eligibility of
Orphans or Vulnerable Children
The HOPE program implemented by OICI provided scholarships to OVC in 4 of Ghana’s
10 regions. At the time of the audit, the program was sponsoring 556 scholarship
recipients, and since inception the program had reached 1,302 students. PEPFAR
clearly defines an OVC as a “child, 0-17 years old, who is either orphaned or made more




                                                   16 

vulnerable because of HIV/AIDS.” An orphan has “lost one or both parents to
HIV/AIDS,” and a vulnerable child is one who meets any of the following requirements:

   Is HIV-positive.

   Lives without adequate adult support (e.g., in a household with chronically ill parents,
    a household that has experienced a recent death from chronic illness, a household
    headed by a grandparent, or a household headed by a child).

   Lives outside of family care (e.g., in residential care or on the streets).

   Is marginalized, stigmatized, or discriminated against.

However, during visits to 12 vocational training centers in 3 of the 4 regions, attempts to
verify the eligibility of the recipients were unsuccessful because the centers did not
maintain records documenting how or why children had been admitted to the program.
Although the centers and OICI maintained a spreadsheet containing the names of the
students, OICI did not maintain files or records to support children’s ages, the presence
or health status of parents, or other eligibility requirements. Moreover, we noted that
OICI personnel in charge of reviewing eligibility of scholarship recipients were not
familiar with PEPFAR’s eligibility criteria. USAID/Ghana provided us with eligibility
criteria that OICI was theoretically required to use, but these criteria were not the same
as those issued by PEPFAR.

OICI regional personnel in charge of ensuring beneficiary eligibility did not verify critical
information—such as the age of the beneficiary, HIV/AIDS status, and other PEPFAR
requirements—because they relied on third parties such as the Red Cross, hospital
officials, and others. The lack of student files can be attributed to inadequate oversight
of the program.

As a result, the program may have assisted beneficiaries who were not eligible for the
program. The audit team interviewed the students,3 asking general questions to
determine whether these children were eligible for the program, but specifically avoided
questions related to HIV/AIDS because of concerns over beneficiary confidentiality. Of
44 students interviewed, 10 students were 18 or older.4 Most students mentioned that
their parents were ill, dead, or living at unknown locations, but 18 students mentioned
that both of their parents were still alive and well. When asked how she was admitted to
the program, one student mentioned that a friend at her church who liked her singing got
her in. Another student mentioned that the person who recruited him was impressed
with his play during a soccer match and offered him the scholarship. Because of the
lack of documentation and concerns regarding confidentiality, we could not conclusively
determine whether a particular child was eligible to participate in the program. To
ensure the eligibility of future scholarship recipients, we are making the following
recommendation.


3
  Our conclusion was not based solely on the interviews (those interviewed may not be representative of the
entire population, and students’ statements may or may not be true), but we are including them because
they demonstrate the need to document program eligibility.
4
  Because this is a 2-year program, some children may have met age requirements when they entered the
program, but there was no support to determine their ages.


                                                   17 

   Recommendation 7: We recommend that USAID/Ghana implement controls
   requiring that Opportunities Industrialization Centers International (1) use the
   President’s Emergency Plan for AIDS Relief guidelines to verify the eligibility of
   all students who receive scholarships as part of the HOPE program and (2)
   document and maintain each student’s personal file at Opportunities
   Industrialization Centers International offices.

Distribution of Program Allowances
Lacked Controls
Under the HOPE program, beneficiaries are entitled to receive 80 Ghanaian pesewas
(1 cedi is divided into 100 pesewas; 80 pesewas is equivalent to $0.56) for daily food
and transportation expenses. Although these payments are to be made in full each
month, the audit team noted some exceptions.

At one vocational school visited, records showed that all five students had received less
money than they were entitled to. The students reported that the administrator of the
school and a teacher were retaining 25 percent of the monthly allowances without
student consent or permission from OICI. OICI representatives were unaware of the
situation and pledged to take immediate action by having the OICI regional
representatives pay the monthly allowances directly to the students.

In addition, all 44 students interviewed reported that they did not always receive their
allowances on time or in full. Of the 44 students, 18 students did not receive any
allowance during October and November 2009 but received a lump-sum payment in
December for the 3 months. This delay occurred because regional personnel did not
receive funding from OICI headquarters on time. Furthermore, OICI was not adequately
supervising distribution of allowances.

Although the amount of money withheld from the students is not significant, these acts of
wrongdoing and possible fraud committed by the administrators and teachers should be
addressed. A reduced allowance or delay in payment can cause undue hardship to
students who are already struggling financially. In extreme cases, allowance problems
could lead to school dropouts. We are making the following recommendation to ensure
that each beneficiary receives the full allowance on time.

   Recommendation 8: We recommend that USAID/Ghana require Opportunities
   Industrialization Centers International to develop and implement financial controls
   to confirm that the scholarship recipients receive their allowances on time and in
   full.

USAID/Ghana Should Adhere to
Branding Requirements

ADS 320, “Branding and Marking,” generally requires “that all USAID-funded foreign
assistance must be branded through the use of a ‘Branding Strategy’ and marked
through the use of a ‘Marking Plan.’” USAID programs, projects, activities, public
communications, and commodities with USAID funding are generally required to be
branded with a standard graphic identity.


                                           18 

The audit team observed the following instances of noncompliance with USAID’s
branding requirements:

	 At the offices of all five SHARP subpartners visited, none of the USAID-funded fixed
   assets—air-conditioners, chairs, TVs, computers, etc.—were branded with the
   appropriate USAID logo. This lack of branding occurred because the subpartners
   either were unaware of the requirement or were awaiting further instruction from
   AED.

	 None of the computers, chairs, or tables at the QHP office were appropriately
   branded, and neither of the two external computer hard drives donated to the Korle
   Bu Teaching Hospital in Accra were branded.

	 Personnel at a hospital visited in Nsawam in the Eastern region did not know that
   USAID was the sponsor of the training they received.

	 None of the 18 computers and printers donated by USAID/Ghana to the OICI
   vocational school in Kumasi were branded with the appropriate USAID logo.
   Instead, all of them were inappropriately branded with OICI logos and markings.

	 Although administrators, teachers, and students interviewed were all very excited
   about the HOPE scholarship program and wished for it to continue, 29 out of 44
   students interviewed were unable to identify USAID or the American people as the
   sponsor.

	 At one of the three regional medical stores visited, the head pharmacist in charge of
   managing program drugs was not aware of USAID's contributions. She believed that
   the National AIDS Control Program provided most of the support to the store and
   was uncertain about whether funding came from the Global Fund, USAID, the
   Government of Ghana, or another source. At the Central Medical Store,
   another USAID trainee was unable to identify USAID as the donor.

	 None of the six vehicles used by OICI, EngenderHealth, and John Snow
   International were appropriately branded. The mission explained that the Regional
   Security Office opposed branding vehicles. However, no waivers were obtained.

For AED, the lack of an approved branding implementation plan contributed to the
problem, and for EngenderHealth and OICI, the branding plan was not followed. More
importantly, USAID/Ghana failed to identify and correct the deficiencies. The risk exists
that neither the U.S. Government nor the American people will receive the credit they
deserve for their HIV/AIDS efforts in Ghana, and the objectives of furthering U.S foreign
policy in Ghana will not be achieved. To ensure that the people of Ghana know about
USAID’s contributions, this audit makes the following recommendation.

   Recommendation 9: We recommend that USAID/Ghana direct all partners in
   writing to develop branding plans to ensure adherence to USAID branding
   guidelines (which may include obtaining waivers).




                                           19 

EVALUATION OF
MANAGEMENT COMMENTS
USAID/Ghana agreed with eight of the nine recommendations in the draft report. In
preparing the final report, the Regional Inspector General/Dakar (RIG/Dakar) considered
management’s comments and clarified its position on the one recommendation with which
the mission did not agree. The evaluation of management comments is shown below.

For recommendation 1, USAID/Ghana disagreed with some of the content in the finding,
but concurred with the recommendation. Specifically, the mission thought that our audit
sample was small and skewed—selecting only 6 of 30 facilities and including facilities
where activities were limited. However, we have documented in our scope and
methodology section that, although the results from the sample cannot be projected to
the universe of all activities, we believe that our work provides a reasonable basis for our
conclusions. Nevertheless, the mission submitted a revised QHP work plan, which
includes training and followup, which RIG/Dakar has reviewed. This action constitutes
final action for this recommendation.

For recommendation 2, USAID/Ghana agreed with the recommendation and will
develop, in coordination with QHP, a system that measures increases in service outputs
by September 7, 2010. Accordingly, a management decision has been reached for this
recommendation.

For recommendation 3, USAID/Ghana agreed with the recommendation and has sent a
letter to Family Health International, the implementing partner on the 4-year follow-on
project SHARPER, to inform Family Health International of the audit findings and ask it
to improve on the selection process, paying particular attention to ensuring that
subagreements span longer periods. RIG/Dakar reviewed this letter, and it adequately
addresses the recommendation.           This action constitutes final action for this
recommendation.

For recommendation 4, USAID/Ghana agreed with the recommendation and has sent a
letter to the Acting Director-General of the Ghana AIDS Commission regarding storage
conditions and the need to have adequate equipment. RIG/Dakar reviewed this letter,
and it adequately addresses the recommendation. This action constitutes final action for
this recommendation.

For recommendation 5, USAID/Ghana agreed with the recommendation and has
included a step to ensure “proper disposal of expired/damaged ARV” in the current John
Snow International work plan. RIG/Dakar reviewed this work plan, and it adequately
addresses the recommendation.          This action constitutes final action for this
recommendation.

For recommendation 6, USAID/Ghana agreed with the recommendation and added that
procedures to revise performance targets will be included as part of the next country
operational plan, which will be completed by October 15, 2010. Accordingly, a
management decision has been reached for this recommendation.



                                            20 

For recommendation 7, USAID/Ghana did not agree with the recommendation.
According to the mission, with regard to the type of documentation required for
confirming eligibility, HIV test results for the parents of affected children are not
necessary for Orphans and Vulnerable Children (OVC) to receive service. The mission
considers that participation of the child’s parent(s) in a support group for People Living
with HIV/AIDS is sufficient evidence of the child’s eligibility for the OVC program based
on a presentation made by the Senior Technical Advisor for OVC at the Office of the
Global AIDS Coordinator in September 2007, which stated, “a child does not need to be
infected, or an orphan, and does not need proof, but only possibility of parent being
chronically ill to be considered an OVC.”

However,     we     would    like  to    point     out        that    PEPFAR        guidance
(http://www.pepfar.gov/guidance/78164.htm) states:

      Conceptually, a vulnerable child is one who is living in circumstances with
      high risks and whose prospects for continued growth and development are
      seriously impaired. In the international community, the term ‘Orphans and
      other Vulnerable Children,’ or ‘OVCs,’ sometimes refers only to children with
      increased vulnerabilities because of HIV/AIDS, and at other times refers to
      all vulnerable children, regardless of the cause (e.g., chronic poverty, armed
      conflict, famine). Since the Emergency Plan focuses on those with
      increased vulnerabilities from HIV/AIDS, this guidance defines ‘OVC’ in the
      following way:

      A child, 0-17 years old, who is either orphaned or made more vulnerable
      because of HIV/AIDS.

      [An orphan] Has lost one or both parents to HIV/AIDS

      [and a vulnerable child] Is more vulnerable because of any or all of the
      following factors that result from HIV/AIDS:

      	   Is HIV-positive.

      	   Lives without adequate adult support (e.g., in a household with
           chronically ill parents, a household that has experienced a recent death
           from chronic illness, a household headed by a grandparent, and/or a
           household headed by a child).

      	   Lives outside of family care (e.g., in residential care or on the streets).

      	   Is marginalized, stigmatized, or discriminated against.

Our recommendation was intended to establish adequate controls to ensure that only
eligible beneficiaries participate in the program. According to the mission’s response,
the mere possibility of a parent being chronically ill is sufficient. The mission is implying
that documentation of a link to HIV/AIDS is not necessary, which is contrary to
PEPFAR’s guidance. We contacted the Sr. Technical Advisor for Orphans and
Vulnerable Children Technical Working Group Co-Chair for further guidance. She



                                             21 

confirmed that there have been some changes to the definition (for a more vague
definition), however, she stated that unfortunately the new definition has not been
formally updated on the website. According to the advisor, the definition was changed to
protect the children from stigmatism, but she agreed that in the case of Ghana,
increased controls over the eligibility of the child were necessary. Nevertheless,
although there is disagreement about the criteria used for program eligibility, there is
agreement that the age of entrance into the program should be properly documented
and will be implemented by September 30, 2010. Accordingly, a management decision
has been reached for this recommendation.

For recommendation 8, USAID/Ghana agreed with the recommendation and expects
that new controls will be in place before September 30, 2010. Accordingly, a
management decision has been reached for this recommendation.

For recommendation 9, USAID/Ghana agreed with the recommendation and will require
all implementing partners to have branding and marking plans in place before
September 30, 2010. A memo requesting the submission of marking and branding plans
was sent to all implementing partners and reviewed by RIG/Dakar. Accordingly, a
management decision has been reached for this recommendation.




                                          22 

                                                                            APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Dakar conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions, based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The objective of the audit was to determine
whether USAID/Ghana’s HIV/AIDS activities achieved their main goals.

In planning and performing the audit, the audit team assessed management controls
related to management review, proper execution of transactions and events, and
performance targets and indicators. Specifically, we reviewed and evaluated the
following:

	 FY 2009 and FY 2010 country operational plans

	 Performance management plans

	 Certification required under the Federal Managers’ Financial Integrity Act of 1982 (as
   codified in 31 U.S.C. 1105, 1113, and 3512)

	 Implementing partner agreements

	 Actual performance results

	 Data quality assessments

	 Financial reports

We interviewed key USAID/Ghana personnel, implementing partner staff, volunteers,
beneficiaries, and Ghanaian Government health and education officials. We conducted
the audit at USAID/Ghana and at the activity sites of implementing partners in 3 of
Ghana’s 10 regions (Greater Accra, Eastern, and Ashanti). Audit fieldwork was
conducted at USAID/Ghana December 7-11, 2009, and January 11-22, 2010, and
covered selected activities that took place from FY 2004 through FY 2009.

During FY 2009, USAID/Ghana’s HIV/AIDS program had agreements with several
partners. As shown in the table on the following page, we focused on five agreements,
including the three that were responsible for nearly all the results required by PEPFAR’s
reporting guidelines (QHP, SHARP, and HOPE).




                                         23 

                                  HIV/AIDS Program Agreements
        Activity Name/ Partner Name                   Estimated       Program     Program End
                                                       Budget        Start Date       Date
QHP / EngenderHealth                                 $20,050,000      6/01/2004     9/30/2010
SHARP / Academy for Educational Development          $15,000,000      6/10/2004    10/30/2009
(AED)
USAID | DELIVER / John Snow International (Field     $13,970,000       9/2004       9/30/2011
Support)
HOPE / Opportunities Industrialization Centers        $1,203,359     6/16/2004     9/30/2009
International (OICI)
Teacher Training College HIV/AIDS Window of               $200,000   3/01/2008     9/30/2010
Hope Curriculum / Ghana’s Ministry of Education,
Science, and Sports


During FY 2009, $3.9 million was obligated and $3.3 million was disbursed for
USAID/Ghana’s HIV/AIDS program.

Methodology
To answer the audit objective, we reviewed activities implemented by the five selected
implementing partners as well as the PEPFAR indicators reported by USAID/Ghana in
FY 2009. We also reviewed available agreements, progress reports, and work plans of
the five implementing partners. We reviewed applicable laws and regulations and
USAID policies and procedures pertaining to USAID/Ghana’s HIV/AIDS program,
including the Federal Managers’ Financial Integrity Act of 1982 certification, ADS
chapters 202 and 203, and supplemental ADS guidance.

We performed site visits at the following:

	 3 of 10 regional medical stores and the Central Medical Store to observe the process
   of storing and distributing antiretroviral drugs

	 Offices of 5 of 14 subpartners that implemented SHARP’s prevention activities during
   FY 2009

	 6 of 30 hospitals that participated in USAID/Ghana’s quality improvement program

	 12 of 56 vocational training centers for OICI students

The sample consisted of sites that (1) were located in the Greater Accra, Eastern, and
Ashanti regions where the five audited programs were being implemented, (2) included
both large and small hospitals, and (3) involved large, medium, and small numbers of
student participants. The results from the sample cannot be projected to the universe of
all activities on a statistical basis. However, we believe that our work provides a
reasonable basis for our conclusions.

In addition, we visited a piggery and a cassava farm managed by people living with HIV,
an orphanage, a Presbyterian teacher training college, and an HIV/AIDS support group
session.




                                                   24 

During these visits, we interviewed implementing partner staff, service providers,
volunteers, beneficiaries, and Ghanaian Government health and education officials.
Among other things, the purpose of the visits was to verify reported results, ensure that
activities were being monitored and evaluated, and ascertain the effectiveness and
efficiency of the programs.




                                           25 

                                                                              APPENDIX II 




MANAGEMENT COMMENTS



To:            Gerard Custer, Regional Inspector General

From:          Cheryl Anderson, Mission Director, USAID/Ghana /s/

Date:          June 28, 2010

Subject:       Audit of USAID/Ghana’s HIV/AIDS program (report 7-641-10-00X-P)


This memorandum transmits USAID/Ghana’s management response on the above audit
report. The Mission thanks the audit team for their work on data collection and write-up
of the report. The report documents and identifies nine weaknesses, for which
recommendations are proposed for improvement. The Mission concurs with seven of
them without major comments, and proposes measures to close the recommendations.

The Mission has fundamental reservations with two of the perceived weaknesses. The
first is related to the QHP program implemented by EngenderHealth, where we disagree
with the findings presented in the text. However, we will still follow-up on your
recommendation (No. 1). Another recommendation, No. 7, on OVC eligibility for the
scholarship programs, appears surpassed by recent guidance by OVC policy makers.

The Mission’s main reservation concerns the findings that states “EngenderHealth’s
QHP program has had limited effect.” The Mission provided written and verbal
comments on at least six occasions and, again, draws your attention to the fact that the
sample of the audit was small and skewed. The auditors visited six facilities out of a total
of 30 facilities where the program is active. Two of the facilities visited had limited
programs, being 37 Military Hospital and Komfo Anokye Teaching Hospital (KATH).
While high-service volume sites, 37 Military and KATH hospitals are atypical since they
had limited program activities. It appears that the conclusions of the audit
representationally skewed by the experiences in these two hospitals, especially KATH.

After six rounds of written and verbal comments, the Mission notes with some concern
that both Its Health Team and the implementer do not feel that this section accurately
describes the situation, and we have not come to a common understanding with the
audit team of the strengths and weaknesses of the program. There are also still
inaccuracies in the text, e.g. “EngenderHealth did not have plans to provide [refresher
training courses]”, even though The Mission has stated many times that these are part of
the currently implemented work plan. There are also still sweeping statements that in our
opinion cannot be justified from the audit’s limited and unrepresentative sample, e.g.
“Because of EngenderHealth’s inability to promote the program objectives, hospital staff
and management have lost interest in the program”.


                                          26 

The Mission concludes that the audit team has not been able to produce a fair,
representative and balanced account of this particular program. Nevertheless, we are
prepared to respond to the report’s recommendation.

   Recommendation No. 1: We recommend that USAID/Ghana, in coordination
   with EngenderHealth, review and revise its implementation plan to ensure that
   the work plan includes sufficient staff is trained or retrained, and to ensure that
   work plan includes sufficient follow-up with the hospitals to implement clearly
   defined action plans.

   Management Response: The Mission concurs with the recommendation.
   Attached is the latest QHP work plan which in our opinion addresses the issues
   raised in the recommendation (attachment 1).

   Recommendation No. 2: We recommend that USAID/Ghana, in collaboration
   with EngenderHealth develop a metric system that more carefully measures the
   activities performed by EngenderHealth.

   Management Response: The Mission concurs with the recommendation.
   USAID/Ghana appreciates that our opinions and comments have been included
   in the text. We thank the auditors for pointing out that the results from less
   successful QHP sites should not be included in their results, and we will develop
   with QHP a system that measures increases in service outputs within the next
   three months.

   Recommendation No. 3 We recommend that USAID/Ghana develops its new
   HIV/AIDS prevention activity to build the capacity of local institutions and improve
   the prospects for sustainability by entering into longer sub-agreements and
   improving the sub-partner selection process.

   Management Response: The Mission concurs with the recommendation. We
   have written a letter to the 4-year follow-on project, Family Health
   International/SHARPER, to inform them of the audit findings and have requested
   them to improve upon the selection process and pay particular attention to
   ensuring that sub-agreements span longer periods of time. The letter is
   reproduced as attachment 2.

   Recommendation No 4: We recommend that USAID/Ghana advocate for
   improved HIV/AIDS commodity procurement and storage in a letter to the
   Director General of the Ghana AIDS Commission, that includes this section of
   the audit report and points out the need for adequate equipment in warehouses
   to guarantee quality of anti-retroviral therapy (ART) drugs.

   Management Response: The Mission concurs with the recommendation. A letter
   has been sent to the Acting Director-General of the Ghana AIDS Commission
   and is reproduced as attachment 3.

   Recommendation No. 5: We recommend that USAID/Ghana work with John
   Snow International and revise the work plan to include preparation of a disposal


                                           27 

plan to assist the Government of Ghana in the disposal of expired goods.

Management Response: The Mission concurs with the recommendation.
However, as previously stated in communications with the audit team, these are
serious concerns regarding GOG products that are shared by USAID and the
entire donor community and which USAID has been working to address for some
time. John Snow has included this activity in the current work plan (attachment 5,
activity 1.4.1. c and d; and footnotes on the last 2 pages “steps to proper disposal
of expired/damaged ARV”).

Recommendation 6: We recommend that USAID/Ghana’s HIV/AIDS team
establish written procedures to revise its performance targets for Emergency
Plan activities to reflect realistic exceptions.

Management Response: We agree with the recommendation. A document
outlining such procedures will be included as part of the next Country Operational
Plan.

Recommendation No. 7: We recommend that USAID/Ghana implement
adequate controls to ensure that OICI (1) verifies the eligibility of all students who
receive scholarships as part of the HOPE program using PEPFAR guidelines and
(2) documents and maintains each student’s personal file at the vocational
centers and at OICI offices.

Management Response: The Mission does not concur with the recommendation.
Some of the findings cited by the audit team to support the recommendation
concerning validity of source documentation are not consistent with recent
PEPFAR guidance. Specifically, in regards to the type of documentation
required for confirming the accuracy of results reported, the presence of HIV test
results for the parent of affected children are not necessary for Orphan or
Vulnerable Child (OVC) to receive service. In a presentation made by the Sr.
Technical Advisor for OVC at the Office of the Global AIDS Coordinator (O/GAC)
in September 2007 to clarify this issue, a slide stated, “a child does not need to
be infected, or an orphan, and does not need proof, but only possibility of parent
being chronically ill to be considered an OVC”. Therefore, participation of the
child’s parent(s) in the support group for People Living with HIV/AIDS is sufficient
evidence for eligibility of the child into the OICI program. This broader definition
of “OVC” is also a matter of Public Law. Public Law 110-293, which reauthorized
the PEPFAR program in 2008, states: “orphans and children who are vulnerable
to, or affected by, HIV/AIDS.” Citation: The Tom Lantos and Henry J. Hyde
Global Leadership Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization
Act of 2008, PL 110–293, 122 STAT. 2918, (2008).

The current data collection system being employed by USAID and its partner
OICI – with emphasis on record keeping at the Regional OICI Offices (and thus
away from possible unauthorized observers at the schools) is in our opinion
appropriate. The methods used by OICI to determine eligibility are widely
accepted in other programs and are considered appropriate to protect the privacy
of clients seeking HIV related services that are still highly stigmatized in Ghana.
We will however, make sure that the age of entrance into the program is properly
documented.


                                         28 

In formulating this response we were supported by Gretchen Bachman, Sr. Technical
Advisor, Orphans and Vulnerable Children, PEPFAR OVC Technical Working Group
Co-Chair, Office of HIV/AIDS, Global Health, USAID, WDC, Email:
gbachman@usaid.gov, Telephone: 202 684-9946

Recommendation No. 8: We recommend that USAID/Ghana require Opportunities
Industrialization Centers International to develop and implement financial controls to
confirm that the scholarship recipients receive their allowances on time and in full.

Management Response: The Mission concurs with the recommendation. We expect
the new controls to be in place before the end of the fiscal year.

Recommendation No. 9: We recommend that USAID/Ghana direct all partners
in writing to develop branding plans to ensure adherence to USAID branding
guidelines.

Management Response: The Mission concurs with the recommendation and will
require all implementing partners to have branding and marking plans in place before
the end of the fiscal year. Please note that the Regional Security Officer is against
the branding of vehicles for security reasons. A memo requesting submission of
marking and branding plans is reproduced as attachment 4. Branding and marking
plans should be in place within the next three months.




                                       29 

U.S. Agency for International Development 

        Office of Inspector General 

       1300 Pennsylvania Ave., NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
